IDENT/IAFIS:
THE BATRES CASE AND THE STATUS OF THE INTEGRATION PROJECT



I.    INTRODUCTION

      In January 2002, Border Patrol agents in the Immigration and
Naturalization Service (INS) apprehended Mexican citizen Victor Manual Batres
(Batres) twice within two days as he crossed the border from Mexico into the
United States. Only during his second apprehension did the agents learn,
through a check of INS databases, that a warrant had been issued for Batres’
arrest in Oregon for possession of dangerous drugs. When contacted by the
Border Patrol, the Oregon authorities declined to seek Batres’ extradition to
Oregon on the warrant.

       As a result, the Border Patrol returned Batres to Mexico. Yet, during
both apprehensions Border Patrol agents never queried Federal Bureau of
Investigation (FBI) databases for criminal information on Batres. Had they
done so, the databases would have showed that Batres had a significant
criminal history in the United States, including several aggravated felony
convictions and at least one prior deportation from the United States. If the
agents had learned of this criminal history and prior deportation, under Border
Patrol policies they should have detained Batres for prosecution for the felony
offense of Reentry After Deportation. This felony offense is easily proven and
generally carries a substantial prison term for individuals such as Batres with
prior aggravated felonies and deportations. Consequently, Batres likely would
have been incarcerated rather than being voluntarily returned to Mexico.

      Instead, after his voluntary return to Mexico, Batres illegally reentered
the United States and traveled to Oregon September 2002 where he brutally
raped two Catholic nuns, resulting in the death of one of the nuns. Batres was
arrested, pled guilty to murder and rape, and was sentenced to life in prison
without the possibility of parole.

      The Batres case was reminiscent of a 1999 case in which the Border
Patrol voluntarily returned Rafael Resendez-Ramirez to Mexico, unaware that
the FBI and local authorities had outstanding arrest warrants for him for
murder and that he had a significant criminal history. Shortly after Resendez’s
voluntary return to Mexico, he illegally reentered the United States and
committed four more murders before he surrendered to law enforcement
authorities.1 In the Resendez case, we found that INS employees had not been
trained adequately on IDENT, the INS’s automated fingerprint system, and had
failed to put in IDENT a lookout for Resendez when the FBI and local
authorities informed them about his outstanding warrant. Because IDENT and
IAFIS, the FBI’s separate automated fingerprint identification system, were not
linked, the Border Patrol officers who detained Resendez did not know he was
wanted for murder and released him, which allowed Resendez to commit
several more murders.2

       The INS’s database, called IDENT, began operating in 1994.3 The FBI’s
database, known as IAFIS, began operating in 1999. In several reports over the
past few years, however, the Office of the Inspector General (OIG) has reported
extensively on the efforts to integrate these databases and found that
integration has been moving slowly and still may take years to fully
accomplish.4

       The Batres and Resendez cases both demonstrated the urgent need to
integrate the separate FBI and INS automated fingerprint identification
databases. In these two cases, had the immigration agents been made aware
of the information in the FBI databases, both Batres and Resendez would have
been detained and likely incarcerated instead of being voluntarily returned to


       1 The facts of the Resendez case are detailed in a March 2000 OIG report entitled “The
Rafael Resendez-Ramirez Case: A Review of the INS’s Actions and the Operation of Its IDENT
Automated Fingerprint Identification System.”

       2  The full name of IAFIS is the “Integrated Automated Fingerprint Identification
System.” IAFIS is an automated ten-fingerprint matching system run by the FBI that contains
in its Criminal Master File over 43 million ten-print fingerprint records. IAFIS records can be
electronically compared against submitted fingerprints.

       3  The full name of IDENT is the “Automated Biometrics Identification System.” To
enroll an alien in IDENT, an immigration employee places the alien’s right and left index fingers
on the IDENT fingerprint scanner, takes the alien’s photograph with the IDENT camera, and
enters certain biographical information into the computer. IDENT then electronically compares
the alien’s fingerprints to fingerprints in two IDENT databases: 1) a “lookout” database that
contains fingerprints and photographs of approximately 1 million aliens who have been
previously deported or who have a significant criminal history; and 2) a “recidivist” database
that contains fingerprints and photographs of approximately 6 million illegal aliens who have
been apprehended by the INS and enrolled in IDENT since it was deployed.

       4  These OIG reports include a March 1998 report entitled “Review of the Immigration
and Naturalization Service’s Automated Biometric Identification System”; a March 2000 report
entitled “The Rafael Resendez-Ramirez Case: A Review of the INS’s Actions and the Operation
of Its IDENT Automated Fingerprint Identification System”; a follow-up inspection report issued
in December 2001 entitled “Status of IDENT/IAFIS Integration”; and another follow-up
inspection report issued in June 2003 entitled “Status of IDENT/IAFIS Integration.”




                                               2
Mexico, where they subsequently were able to return to the United States and
commit additional crimes.

      The OIG began its investigation of the INS’s handling of the Batres case
when the INS was still part of the Department of Justice (DOJ). This report
summarizes the results of the OIG’s investigation as well as the status of the
DOJ’s and the Department of Homeland Security’s (DHS) efforts to integrate
IDENT and IAFIS. As the Batres case tragically demonstrated again, an urgent
need continues to exist to integrate the IDENT and IAFIS databases as
expeditiously as possible.

      Yet, the DOJ Justice Management Division’s (JMD) September 2003
response to the OIG’s latest recommendations for integration raises continued
concerns about the pace of integration. The response indicates that the
March 1, 2003, transfer of the INS from the DOJ to DHS, the reassignment of
key INS employees who were involved in the integration effort, and continued
budgetary hurdles could result in additional delay in the integration efforts.

      In this report, we summarize the history of IDENT and IAFIS, discuss
how each system operates, describe early efforts to merge the systems, and
examine the reasons for the delay of those efforts. The report then summarizes
the Resendez case in 1999 and how that case generated a greater impetus to
merge the two systems. The report also summarizes several OIG reviews that
emphasized the need for integration of the two databases.

      Next, the report details the handling of the Batres case by immigration
authorities. We discuss the history of Batres’ entries into the United States in
January 2002, his criminal and deportation history, and his outstanding arrest
warrant in Oregon for possession of dangerous drugs which resulted in a
lookout for him being placed in IDENT. We then examine why the Border
Patrol failed to discover Batres’ criminal or deportation history during either of
his apprehensions in January 2002. Finally, the report describes the current
status of the efforts to integrate IDENT and IAFIS.

II.   BACKGROUND ON FBI AND INS AUTOMATED FINGERPRINT
      IDENTIFICATION DATABASES

      United States immigration authorities have long recognized the need for
an automated fingerprint identification system to quickly determine the
immigration and criminal histories of aliens apprehended at or near the border.
More than one million aliens are apprehended each year attempting to enter
the United States illegally. Many of these aliens are apprehended in large
groups, and the Border Patrol lacks the resources to detain all of them for
extended periods of time. Consequently, the vast majority are voluntarily
returned to their country of origin, mostly to Mexico, without any criminal
charges being filed.


                                        3
      At the same time, immigration authorities need to be able to quickly
determine which of these aliens should be detained for prosecution based on
multiple illegal entries, reentering the U.S. after a prior deportation, alien
smuggling, a current arrest warrant, or an aggravated criminal record.
Historically, in order to identify which individuals to detain for possible
prosecution or deportation, the INS had to rely on the names provided by the
apprehended aliens and check them against its databases or other paper
records. This method was ineffective because aliens often use false or different
names. Also, many aliens have similar names, and spelling errors result in
problems identifying individuals accurately.

       Therefore, in 1989 Congress provided the initial funding for the INS to
develop an automated fingerprint identification system that eventually became
known as IDENT. While one of the main purposes of IDENT was to identify
and prosecute repeat immigration offenders, another significant purpose was to
identify criminal aliens who should be detained. The 1989 conference report
described Congress’s rationale for funding the project:

      Illegal immigration continues at alarming rates, and criminal
      alien statistics provided by the INS indicate that a growing
      proportion of aliens are drug smugglers, known criminals, and
      suspected terrorists. Emerging technology in the area of
      automated fingerprint identification systems has the potential
      for providing empirical data to clearly define the problem of
      recidivism as well as immediately identify those criminal
      aliens who should remain in the custody of the INS (emphasis
      added).5

      At about the same time, the FBI began to overhaul its paper-based
fingerprint card system, which it had maintained since the 1920s, to create a
new automated fingerprint identification system that would allow electronic
searches for fingerprint matches. Since the 1920s the FBI’s Identification
Division has maintained a central repository of ten-prints of criminal offenders’
fingerprints. In 1967, the FBI created the National Crime Information Center
(NCIC) to provide a national database of information on wanted individuals and
stolen articles, vehicles, guns, and license plates. Fingerprint information is
submitted by participating federal, state, and local law enforcement agencies.
The Interstate Identification Index (III), which contains criminal history
information on arrests and dispositions, was added to NCIC in 1983.



      5 See H.R. Conf. Rep. No. 100-979 at 30, accompanying H.R. 4728, 100th CONG.,

2d SESS. (1988).



                                           4
       In February 1990, the NCIC Advisory Policy Board recommended that the
FBI update its paper-based fingerprint identification system and create a new
automated system, which eventually became known as the FBI’s Integrated
Automatic Fingerprint Identification System (IAFIS). During 1990 and 1991,
the INS and FBI met to discuss possible coordination of their planned
automated fingerprint identification systems. Memoranda summarizing some
of these meetings stated that the INS and FBI were coordinating the
development of an integrated automated fingerprint identification system to
determine if the integrated system could satisfy the INS’s needs. The
memoranda also included preliminary diagrams and narratives of how the
FBI’s IAFIS and the INS’s proposed system could be linked in an overall
automated fingerprint identification system network. There also was
discussion of how to ensure common high-quality fingerprint image and
electronic transmission standards for fingerprints and identification data so
that they could be transmitted among different fingerprint identification
systems.

        From the start, the INS and the FBI recognized that integration of their
separate automated fingerprint identification systems would benefit both
agencies. An integrated system would reduce the likelihood that INS would
release an alien who had a serious criminal record and prior deportations. It
also would enable federal, state, and local law enforcement authorities to
search fingerprints from a crime scene against an immigration database of
illegal border crossers, especially if ten prints are taken.

III.   IMPLEMENTATION OF SEPARATE FBI AND INS DATABASES

      During the early planning meetings, the INS and FBI discussed whether
the FBI would be willing to store fingerprint records of criminal and non-
criminal aliens or whether the INS should establish a separate system if the
FBI system could not support all of the INS’s requirements. In the discussions,
both the INS and the FBI believed that the INS would not need to check all
apprehended aliens against the FBI’s databases. Rather, they believed that the
INS would check only those aliens the INS identified as potential criminals.
They assumed that the FBI’s IAFIS could handle only a small volume of INS
requests within a quick response time. The INS emphasized that a fast
response time was critical because the INS could not detain large numbers of
apprehended aliens for long periods of time while waiting for responses to
criminal checks.

      An early difference of opinion between the INS and the FBI was whether
the INS should take two fingerprints or ten fingerprints from the aliens it
apprehended. The FBI, along with state and local law enforcement agencies,
believed that the INS should take ten fingerprints so that they could be
matched against ten-fingerprint records in the law enforcement databases or
any latent fingerprints obtained at crime scenes. Because fingerprints at crime


                                        5
scenes may be from any finger, the long-established law enforcement standard
requires that officers take prints from all ten fingers. But the INS believed that
taking ten fingerprints of all apprehended aliens would take too long and
adversely affect its ability to carry out its mission, because large numbers of
aliens would have to be detained for increased lengths of time while waiting for
fingerprint checks.

       Between 1991 and 1993, the INS operated a pilot Automated Fingerprint
Identification System (AFIS) project in the San Diego Border Patrol Sector, and
in 1994 Congress allocated funding for the INS’s automated system. During an
April 1994 meeting regarding the deployment of IDENT, the FBI told the INS
that without additional development time and money, which the FBI did not
have, the FBI’s planned IAFIS system could not meet the INS’s need to handle a
high volume of fingerprints (for more than one million aliens apprehended
annually), and the INS needed a quick response time (two minutes or less) for
each encounter. Further, the FBI said that the alternative of searching and
matching the two fingerprints captured by IDENT against the FBI’s planned
IAFIS ten-fingerprint database would require much more computer power than
the FBI had in order to provide the response time that the INS needed.

        Therefore, in 1994 the INS decided to move forward with implementation
of its separate IDENT system, independent from the FBI’s IAFIS system. In
order to meet its own needs, the FBI decided that its automated fingerprint
system, IAFIS, would contain all ten fingerprints and provide a response in two
hours for high priority electronic requests and a longer time for lower priority
and non-electronic requests.

       IDENT was first deployed in 1994. As noted above, IDENT matches the
fingerprints of the detained individual against the corresponding fingerprints of
all individuals in two central IDENT databases: the recidivist database (now
referred to as the apprehension database) and the lookout database. The
apprehension database documents the apprehensions of illegal border
crossers, reflecting the time, date, and circumstances of each recorded
apprehension. As of January 2004, approximately 6 million different aliens
were enrolled in the IDENT apprehension database.

       A primary purpose of the IDENT database is to advise the processing
agent as to the number of times that an alien has been apprehended for illegal
entry. Because of resource limitations, including detention space and
prosecutorial resources, Border Patrol sectors or stations, in conjunction with
the local United States Attorney’s Office (USAO), set a “threshold” number of
apprehensions for illegal entry that would be required before detained aliens
are prosecuted for Entry Without Inspection (8 USC § 1325). Generally, unless
that threshold is reached, or there are aggravating factors associated with the
aliens’ apprehensions (such as persistent false statements, combativeness,
indications that the alien has been previously incarcerated, or indications that


                                        6
the alien is a smuggler), Border Patrol agents voluntarily return aliens to their
country without further inquiries of other immigration or criminal databases.

      The second IDENT database, called the lookout database, contains
information on deported and criminal aliens. Alien ten-print fingerprint
records are entered into the lookout database at a central location in
Washington, D.C., from ten-print cards sent by INS offices from around the
country. Ten-print cards are generally prepared whenever immigration
personnel process aliens for deportation or prosecution. Index fingerprints,
photographs, and basic text information are scanned and retyped from the
fingerprint cards to create individual lookout records in the IDENT database.

       The INS’s IDENT system was designed to automatically alert personnel at
the Western Identification Network Automated Fingerprint Identification Center
(WIN/AFIS) whenever IDENT returned a lookout hit indicating an outstanding
warrant for an apprehended alien.6 INS procedures required WIN/AFIS
personnel to contact promptly by telephone the apprehending Border Patrol
personnel to confirm the lookout match and to inform the Border Patrol agents
of the nature of the warrant and the contact numbers for the appropriate law
enforcement officials regarding the warrant. This contact generally occurs
within one hour. A Border Patrol supervisor then should make the appropriate
contact with the law enforcement officials who issued the warrant to determine
whether they want to transport the alien to their jurisdiction for prosecution.
The burden and expense for such transportation falls on the requesting
agency.

      Typically, if the issuing authorities do not want the alien transported,
and there is not any other reason to detain the alien, the Border Patrol
voluntarily returns the alien across the border. However, some circumstances
warrant further detention and investigation. For example, if a processing agent
learns – usually from the alien himself, or through prior IDENT entries from
previous apprehensions – that the alien has a prior criminal history, the Border
Patrol may seek the prosecution of the alien for the offense of Entry Without




       6  Formed in 1989, WIN/AFIS contains information from state and federal criminal
justice agencies in seven Western states. Its database contains about 2.5 million arrest
records from those member states and from the INS. Its fingerprint search capabilities are
provided by a large-scale AFIS installation in Sacramento, California. An additional unit called
the INS WIN/AFIS Service Center provided technical support to INS facilities performing
criminal searches on WIN and handled WIN registrations. During the time period under review
in this report, the INS WIN/AFIS Service Center operated 7 days per week, 24 hours per day,
and was staffed by contract employees who were qualified fingerprint examiners and who could
make fingerprint matches.




                                               7
Inspection.7 Also, if the agent learns that the alien has a prior deportation, the
law requires reinstatement of the prior order of deportation, and the alien is
not eligible for voluntary return to Mexico. See 8 USC § 1231(a)(5). Upon
learning of the prior deportation, the processing agent should confirm the
alien’s prior criminal history. Moreover, an alien likely will be prosecuted for
the felony charge of Reentry After Deportation if the alien has a record of a
prior felony or aggravated felony. A conviction for Reentry After Deportation
carries a potential sentence of up to 10 years’ imprisonment for an alien with a
prior criminal record of a felony or three misdemeanors, or a sentence of up to
20 years’ imprisonment for an alien with a prior “aggravated felony” conviction
pursuant to § 1326(b).

       However, Border Patrol agents in the El Paso Sector’s Deming and Santa
Teresa Stations did not have direct access to the FBI’s records or databases to
determine the alien’s criminal history, and the FBI’s criminal records are not
linked to IDENT.8 Rather, in order to conduct criminal record checks on
apprehended aliens, Border Patrol agents in these stations had to telephone
the Border Patrol sector’s communications office, commonly known as the
“radio room,” which has direct links to various criminal and immigration
databases. These databases include the FBI’s NCIC, which contains criminal
history information and outstanding warrants submitted by participating
federal, state, and local law enforcement agencies on millions of individuals;9
immigration databases containing records of prior immigration contacts with
the alien, such as deportations; and a United States Customs Service
(Customs) database, the Treasury Enforcement Communications
System/Interagency Border Inspection System (TECS/IBIS), that is typically
used by inspectors at ports of entry to check incoming travelers.

      The Border Patrol lacks the manpower to conduct separate criminal and
immigration history checks for every apprehended alien. Accordingly, these
additional database checks are requested for only the small fraction of the
apprehended aliens whose behavior, appearances, outstanding warrants, or

        7 While the Border Patrol technically could bring this charge for every illegal entry, it is

not feasible to bring charges on each apprehended alien because of the effect on prosecutorial,
judicial, and detention resources.

        8 The Deming and Santa Teresa stations did not have IDENT/IAFIS workstations at the

time of Batres’ apprehensions in January 2002. IDENT/IAFIS workstations were deployed to
Deming in August 2003, although not yet to Santa Teresa.

       9 NCIC contains information on active wants and warrants. Criminal history
information is maintained in the Interstate Identification Index (III). Fingerprint information is
maintained in IAFIS. Information in III can be accessed by name or FBI number through an
NCIC terminal. The same III information also can be accessed via a fingerprint submission to
IAFIS.




                                                 8
other information in IDENT raises concerns with the Border Patrol agents
processing the aliens.

      Thus, while the IDENT database is a useful tool for identifying recidivist
aliens who continue to enter the United States illegally, its lack of integration
with the FBI’s IAFIS database results in significant problems. First, IDENT
contains only a fraction of the Criminal Master File fingerprint records in the
FBI IAFIS database – limited to the “wants and warrants” that the FBI and
United States Marshals Service (USMS) have entered into IDENT since August
2001 and the criminal history fingerprint records of aliens from certain
countries believed to pose a security risk to the United States. Second,
because IDENT is not integrated with IAFIS criminal history files, it does not
apprise Border Patrol agents of aliens with serious criminal records which, in
combination with prior deportations, would warrant prosecution of the alien for
Reentry After Deportation or on other grounds. Further, Border Patrol agents
may fail to take the extra steps needed to query the alien’s criminal history
information, particularly when the alien has a limited number of
apprehensions. Fourth, even when criminal history checks are initiated by
Border Patrol agents, the results may not be communicated to the processing
agent (either by WIN/AFIS, the radio room, or assisting agents) in an accurate
or timely manner. Finally, federal, state, and local law enforcement agencies
have a limited ability to access IDENT fingerprint records through their
systems in order to make use of the information in their investigations.

      The selected input of FBI criminal records into the IDENT database over
the past few years has illustrated the large number of criminal aliens who are
regularly apprehended by the Border Patrol. The USMS “wants and warrants”
were added to IDENT in August 2001. From December 2001 to April 2003,
152,000 FBI “wants and warrants” fingerprint records were entered into
IDENT. From January 2002 to April 2003, immigration authorities
apprehended 4,820 aliens who were wanted for criminal offenses based on
these records. Fifty of these aliens were wanted in connection with murder.
During the same period, an additional 179,500 IAFIS criminal history
fingerprint records of aliens from countries believed to be a threat to the United
States were entered into IDENT and immigration personnel have matched these
criminal records to 3,440 apprehended aliens.

        Beginning in the mid-1990s, several significant events illustrated the
problems resulting from separate INS and FBI databases. First, controversy
arose regarding the way fingerprint checks were conducted for aliens applying
for citizenship under the INS’s “Citizenship U.S.A.” (CUSA) program. This
program was designed to reduce substantially the backlog of citizenship
applications by expediting the processing of citizenship applications, including
the processing of fingerprints. Under CUSA, the INS sent ten-fingerprint cards
of citizenship applicants to the FBI to be checked for evidence of criminal
histories in the FBI’s files. If the INS did not receive a response from the FBI


                                        9
after 60 days, the INS assumed that the alien had no criminal record. This
practice led to many instances in which the INS did not receive timely notice
from the FBI that aliens had a disqualifying criminal record and nevertheless
granted the alien citizenship.

      As a result, the Attorney General established a Fingerprint Coordination
Working Group, which included representatives from the INS and the FBI, to
address problems in fingerprint procedures. As part of this effort, the DOJ
Justice Management Division (JMD) reviewed issues of integration of the INS
and FBI automated fingerprint identification systems and attempted to
coordinate the integration of their separate systems.

       Subsequently, in March 1998 the OIG issued a report evaluating the
INS’s implementation of IDENT.10 The OIG found that the INS was enrolling
less than two-thirds of the aliens apprehended along the U.S.-Mexico border
into the IDENT system. In addition, the INS was entering into the IDENT
lookout database the fingerprints of only 41 percent of the aliens deported and
excluded in Fiscal Year (FY) 1996. Of these aliens, only 24 percent had
accompanying photographs entered into IDENT, even though the INS relied on
photographs as an important method of confirming identification. The OIG
found virtually no controls in place to ensure the quality of data entered into
the IDENT lookout database, which resulted in duplicate records and invalid
data. The OIG report also raised concerns that the INS had not provided
sufficient training to its employees on the use of IDENT, and that these failures
hampered the INS’s ability to make consistent and effective use of IDENT.

       Two months later, in May 1998, in response to a letter from
Congressman Alan Mollohan urging that consideration be given to integrating
the IDENT and IAFIS systems, JMD issued a report recommending that the INS
retain IDENT to meet INS internal requirements, but that the INS adopt ten-
printing as a long-term policy goal. The JMD report concluded that properly
funded, this option would permit the Border Patrol to maintain processing
times while providing other law enforcement agencies with a fingerprint
database that could be searched. The report also recommended a 12-month
pilot study, to begin in the fall of 1999, of a ten-fingerprint system in selected
Border Patrol stations.

IV.    THE RESENDEZ CASE

      In 1999, the consequences of INS’s inability to identify criminal aliens
without integrated IAFIS and IDENT databases were illustrated tragically by
the case of Rafael Resendez-Ramirez (Resendez). In 1998, Resendez, a Mexican

        10 See “Review of the Immigration and Naturalization Service’s Automated Biometric

Identification System,” March 1998.



                                             10
citizen with an extensive criminal record, was apprehended by the Border
Patrol in Texas and New Mexico seven times while crossing the border illegally.
Each time he was voluntarily returned to Mexico.

       Unbeknownst to the agents who apprehended and voluntarily returned
Resendez in accord with normal Border Patrol policy, Resendez had an
extensive criminal history in the United States. He had been convicted
previously on at least eight separate occasions for crimes such as:
(1) destroying private property and leaving the scene of a crime; (2) burglary,
aggravated battery, and grand theft auto; (3) making a false representation of
U.S. citizenship; (4) making false statements to federal officials, falsely
representing to be a U.S. citizen, being a convicted felon in possession of a
firearm, and Reentry After Deportation; (5) burglary; (6) evading arrest;
(7) trespassing, carrying a loaded firearm, and receiving stolen property; and
(8) a separate conviction for trespass. Resendez also had been previously
deported to Mexico at least three times and voluntarily returned to Mexico by
the INS at least four times.

      During each of the seven apprehensions in 1998, the Border Patrol
agents who processed Resendez through IDENT did not learn of his criminal
record or past deportations. Because IDENT was not integrated with IAFIS,
and because IDENT only included information about apprehended aliens on a
day-forward basis, IDENT did not contain any information about Resendez’s
past convictions and deportations. Also, because Resendez had been
apprehended less than the threshold number of times for prosecution for Entry
Without Inspection, the Border Patrol agents simply enrolled Resendez in
IDENT on each of these encounters and voluntarily returned him to Mexico.
They were not required to check, and did not check, FBI databases for criminal
history information and outstanding warrants on him.

      In early 1999, evidence linked Resendez to several brutal murders in
Texas and Kentucky, and warrants were issued for his arrest. At least four
times, other federal and local law enforcement authorities contacted INS
personnel to discuss the warrants and the evidence against Resendez, and to
ensure that the INS placed a lookout for Resendez in the event that he was
apprehended again while illegally entering the country. Yet, none of the INS
investigators who were contacted by the law enforcement officers thought to
have a lookout placed for Resendez in IDENT based on the warrants, either
because the INS investigators were unfamiliar with IDENT or because they
thought it was the job of others to enter the warrants. Two INS investigators
even referred the law enforcement officers to Customs Service employees to
place a lookout for Resendez in the Customs Service’s TECS database, which is
typically used by inspectors to check incoming travelers at ports of entry.
While TECS was useful for aliens attempting to enter the United States at a
port of entry, it was not useful for lookouts on aliens like Resendez who had a
pattern of crossing the border illegally in remote areas between ports of entry.


                                       11
       On June 1, 1999 – at the same time that state and federal warrants for
Resendez were outstanding and law enforcement officers were searching for
Resendez in connection with several murders – Border Patrol agents in Santa
Teresa, New Mexico, apprehended Resendez again crossing the border illegally.
They processed him in IDENT according to their standard practice. IDENT
identified Resendez as a recidivist border crosser, but nothing in IDENT alerted
the Border Patrol agents that he was wanted for murder by the FBI and local
law enforcement authorities. Nor did IDENT disclose Resendez’s extensive
criminal history. Therefore, the Border Patrol did not detain Resendez and,
following its standard policy, voluntarily returned him to Mexico. Within days,
Resendez illegally returned to the United States and committed four more
murders.

       In mid-June 1999, a Border Patrol Intelligence Officer in Texas enrolled
Resendez into the IDENT lookout database to ensure that he would be detained
if encountered again by the INS. At that time, the Border Patrol discovered
that its agents had recently released Resendez despite the outstanding warrant
for his arrest for murder.

      Finally, On July 13, 1999, Resendez surrendered to U.S. law
enforcement authorities. On May 18, 2000, he was convicted of capital murder
and sentenced to death. The verdict was affirmed by a state appellate court on
May 21, 2003.

V.    RENEWED EMPHASIS ON INTEGRATION OF IDENT AND IAFIS

     In July 1999, a House Committee on Appropriations report, with the
Resendez incident clearly in mind, stated:

      [T]he Committee continues to be concerned about the
      inadequacies of this system [IDENT], specifically with regard
      to its ability to identify wanted criminals who may be
      apprehended by INS Border Patrol agents and inspectors
      along the border…the Committee repeatedly raised concerns
      that the IDENT database was not integrated with FBI’s IAFIS
      database.

      The House Report expressed the belief that federal, state, and local law
enforcement should have access to INS fingerprint information and that the
INS should have the full benefit of FBI criminal history records. The House
report directed the INS to suspend further deployment of IDENT until DOJ
submitted to the House Appropriations committee a plan for integration of
IDENT and IAFIS. The Conference Report for the DOJ FY 2000 appropriations
included this provision.



                                      12
       In response to the Congressional directive, DOJ assigned JMD to
coordinate the efforts to develop an integration plan. On August 12, 1999,
JMD convened a “Fingerprint Summit” meeting, attended by representatives of
the FBI and INS, to discuss a plan for integrating IDENT and IAFIS. The
conceptual model agreed to at that meeting required that federal, state, and
local law enforcement agencies be able to access the INS’s fingerprint records
through IAFIS, and that the INS be able to check fingerprints of apprehended
aliens against all fingerprint records in IAFIS.

       On March 1, 2000, JMD’s Management Planning Staff issued a report
entitled “Implementation Plan for Integrating the INS’ IDENT and the FBI’s
IAFIS Fingerprint Data.” The report stated that “The INS and FBI have
acknowledged that integrating IDENT with IAFIS would greatly benefit both
agencies, as well as federal, state, and local law enforcement.” The report
further stated that such integration:

       has the potential to: reduce the likelihood that a wanted
       individual would be released from the INS’ custody; provide
       federal, state, and local law enforcement an integrated
       picture of the criminal activity known by agencies in DOJ,
       including the INS histories of illegal border crossers; and
       enable federal, state, and local law enforcement to search
       latent prints against additional illegal border crossers,
       especially if ten-prints are taken.

      The report discussed various options for integration, but directed that
before any recommendation would be finalized, the INS, FBI, and JMD would
conduct three studies:

       (1) a criminality study that would estimate the percentage of
           apprehended illegal aliens who had been charged with more serious
           crimes;

       (2) an engineering study that would produce a cost analysis for the
           integration, including alternative query response times; and

       (3) an operational impact study that would assess the effect that such
           changes as taking ten prints would have on operations and
           procedures at the border.

     Also in March 2000, the OIG issued its report on the Resendez case.11
The OIG report noted that integration of IDENT and IAFIS would provide what

       11 “The Rafael Resendez-Ramirez Case: A Review of the INS’s Actions and the

Operation of Its IDENT Automated Fingerprint Identification System.”



                                            13
the IDENT lookout database did not – a check of all apprehended aliens to
determine whether they have serious criminal records, prior orders of
deportation, or any outstanding arrest warrants. The report recommended that
DOJ and its components should aggressively and expeditiously link the FBI
and INS automated fingerprint systems.

       From June 2000 through July 2001, DOJ conducted the three studies in
support of the integration project. First, the Operational Impact Study
concluded that it might be feasible for the INS to take 10 fingerprints in many
locations and check them against the FBI’s IAFIS files if the INS could receive a
response from the FBI within 10 minutes, except for high volume workload
periods. Second, the Engineering/System Development Study concluded that
IAFIS could not be searched using the IDENT two-fingerprint system in the
volume and within the response time that the INS required. This study
proposed an alternative approach requiring the INS to collect 10 fingerprints (in
addition to continuing to separately take 2 fingerprints for IDENT). Third, the
Criminality Study projected that a total of 136,000 (8.5 percent) of the
approximately 1.6 million aliens apprehended each year by the Border Patrol
and allowed instead to voluntarily depart would be detained if their fingerprints
were matched against IAFIS and their criminal histories were checked.

       In January 2001, JMD issued its FY 2002 budget request which stated
that incremental versions of the IDENT/IAFIS database would be deployed in
FY 2001, with a fully integrated version deployed in FYs 2006-7. The JMD
plan called for deployment during FY 2001 of Version 1, a single ten-fingerprint
workstation capable of querying IDENT using index fingerprints and IAFIS
using ten fingerprints. The electronic IAFIS response would indicate a match
or no match. When there was a match, IAFIS would electronically transmit the
criminal history Record of Arrests and Prosecutions (RAP) sheet to the
workstation from which the query was made.

      However, in August 2001 JMD revised its plan to slow the pace of the
integration project because of concerns about operational issues relating to
DOJ’s ability to handle the additional workload and the costs of detaining
criminal aliens as projected by the criminality study. JMD also sought the
delay to further study the additional workload and costs and to monitor
developing biometric technologies to ensure that DOJ did not commit large
sums of money to an integration plan that would not take advantage of future
technological advances. As a result of this revised plan, JMD reduced its
original FY 2002 budget request for the integration project from $38 million to
$9 million.12 Also, the anticipated time frame for completing the first integrated
version was delayed one year – from December 2001 until December 2002.

        12 The $38 million included $10 million for IDENT system operation and maintenance

costs, but no funds for increased operational costs for the INS.



                                            14
       In October 2001, in the wake of the September 11 terrorist attacks on
the United States, Congress enacted the USA PATRIOT Act of 2001, Public Law
107-56 (the Patriot Act). The Patriot Act directed the expedited implementation
of an integrated exit and entry data system, including the use of biometric
technology. The Patriot Act also required that the FBI share with the INS
wanted-persons information in IAFIS to determine whether an applicant for
admission at a port of entry has a criminal record. Finally, the Patriot Act
required that the Department report to Congress on enhancing IAFIS and other
identification systems to better identify aliens who may be wanted before their
entry to or exit from the United States.13 Subsequent DOJ responses to
Congress regarding the Patriot Act indicated that an integrated IDENT/IAFIS
was an integral tool to identify terrorist or criminal aliens attempting to enter
the United States.

       In December 2001, the OIG issued another follow-up report examining
the status of the continuing efforts to integrate IDENT and IAFIS.14 The report
concluded that DOJ had moved slowly toward integrating the two fingerprint
systems. As of December 2001, JMD’s plans for the deployment of the final
version of the integrated database had been delayed another year (for a total of
2 years). The OIG report recommended that DOJ continue to seek expeditious
linkage of the FBI and INS automated fingerprint systems, and to continue to
use IDENT while the integration was proceeding. The OIG report also
supported the interim measure of immediately adding to the IDENT lookout
database IAFIS fingerprint records for aliens with outstanding “wants and
warrants,” as well as adding fingerprint records for known or suspected
terrorists.

VI.    THE BATRES CASE

      In 2002, another high-profile case demonstrated the urgent need for
integration of IDENT and IAFIS. In this section of the report, we describe the
Border Patrol’s handling of two apprehensions of Victor Manual Batres in
January 2002. Like the earlier Resendez case, this case tragically illustrated
the danger of requiring immigration agents at individual Border Patrol stations
to decide when they should research an apprehended alien’s criminal history
rather than relying on an integrated database that matches an alien’s
fingerprints and automatically transmits a criminal history RAP sheet to the
Border Patrol station within 10 minutes.


       13As of January 2004, the FBI’s Criminal Justice Information Services Division had not
completed the Attorney General’s report.

       14   See OIG report entitled “Status of IDENT/IAFIS Integration,” December 2001.



                                              15
       A. Batres’ Criminal and Immigration History

      Batres was born in Mexico on September 17, 1969, and before he was 20
years old had developed an extensive criminal record in the United States.
According to NCIC, Batres was charged and convicted of numerous crimes in
the United States under a variety of aliases. NCIC’s III reflects convictions in:

   •   September 1987 in Wenatchee, Washington for theft;

   •   November 1987 in California for selling marijuana and/or hashish
       (an aggravated felony under 8 USC § 1101(a)(43)(B));

   •   June 1988 in California for sale of controlled substances (an aggravated
       felony under 8 USC § 1101(a)(43)(B));

   •   December 1988 in California for kidnapping and Second Degree robbery
       (for which he served 4 years’ imprisonment and was deported) (an
       aggravated felony under 8 USC § 1101(a)(43)(F)).

      NCIC also showed that Batres was arrested in the United States for
additional offenses. Some of these charges were dismissed, some may not have
been pursued in lieu of more serious offenses in other jurisdictions, and the
outcome of other charges could not be determined. Among the additional
arrests were:

   •   May 1987 for unauthorized use of a motor vehicle;

   •   February 1988 for purchasing cocaine;

   •   March 1988 for robbery and possession of narcotics;

   •   April 1988 for possession of controlled substances;

   •   August 1988 for grand theft from a person;

   •   August 1988 for robbery.15
       15  Mexican law enforcement records show that Batres was convicted and jailed in
Mexico for additional crimes, although the records of these convictions would not have been
available to the Border Patrol or contained in the FBI’s criminal databases. Batres was
arrested and incarcerated in Mexico in 1993 for the crime of theft of a vehicle and damages,
and in September 1995 for the crime of theft of an automobile. Batres also acknowledged in an
interview with the OIG being convicted in 1997 in Mexico for the attempted rape of his
stepdaughter, and a 1999 or 2000 conviction for the attempted rape of a family friend in
Mexico. A 2002 arrest warrant also was on file in Mexico for Batres for the crimes of rape and
bodily injuries.



                                             16
       In January 1993, a warrant was issued in Multnomah County, Oregon,
for Batres’ arrest for possession of dangerous drugs, and this information was
entered into the FBI NCIC Wants and Warrants database and IAFIS. A lookout
for Victor Batres-Martinez Batres was electronically downloaded into IDENT by
NCIC on December 28, 2001, as part of a download of all outstanding state and
federal warrants from the WIN network into the IDENT database. This was the
second time that criminal warrants had been added to IDENT.16 The IDENT
entry stated that Batres may have an outstanding warrant and provided an FBI
number to be queried in III.

      The Interstate Identification Index and immigration records also reflect
that prior to January 2002 the INS had deported Batres at least once – on
January 31, 1992, following the completion of his incarceration for robbery and
kidnapping. In addition, INS A-File records indicate that following Batres’
apprehension by El Paso Border Patrol Sector agents in June 1992, the INS
processed Batres again for “Formal Deportation,” although the disposition of
that case was not included in the A-File or in other INS databases.

       B. El Paso Border Patrol Records Check Policy

       On August 16, 2001, the El Paso Sector Border Patrol sent via e-mail to
all sector employees a policy memorandum regarding updates to the IDENT
lookout database. The memorandum stated that the USMS had entered into
the IDENT lookout database approximately 7,600 sets of fingerprints of alien
fugitives with outstanding warrants it had taken from its Warrant Information
Network (USMS-WIN) database. The memorandum stated that all of these
warrants were for serious felonies listed in NCIC.

       The memorandum provided instructions to Border Patrol agents who
encountered in IDENT a “lookout” message stating, “Subject may be a United
States Marshals Service (USMS) Fugitive. Check FBI number in NCIC for
current warrants.” The Border Patrol memorandum instructed agents that if
they encountered such a lookout they should: (1) confirm the individual’s
identity by immediately submitting all of the alien’s ten fingerprints to the INS
WIN/AFIS Center; (2) once WIN/AFIS verified the lookout hit, use the
individual’s FBI number to query NCIC for “wants and warrants” for the alien;17
(3) notify the USMS of the apprehension and warrant number via telephone or

       16 The first download of criminal warrants occurred in August 2001, with the transfer
from IAFIS of records for federal fugitives being sought by the USMS.

       17 The NCIC “wants and warrants” database is different from the NCIC Criminal History
Check. The wants and warrant database does not necessarily chronicle the offenses for which
an individual has been convicted.




                                             17
through NLETS;18 (4) document appropriately the transfer of the alien to the
USMS; and (5) follow the Border Patrol procedures relating to the creation of
A-Files and the retention or forwarding of all documentation relating to these
cases.

      On December 14, 2001, the El Paso Sector Chief Patrol Agent issued
another memorandum entitled “Alien Fugitives in IDENT” to all Sector Border
Patrol Agents in Charge and Unit Supervisors. This memorandum stated:

       If an agent processes an individual through IDENT and gets
       a “lookout” candidate from any of the law enforcement
       agencies registered with WIN AFIS, the Agent will receive a
       call from WIN AFIS. At the time of notification, the “hit” will
       be brought to the attention of a supervisor. The supervisor
       will make the appropriate contact with the agency requesting
       the detention for resolution and/or disposition of the suspect
       being detained.

       A supervisory Border Patrol agent at the Santa Teresa, New Mexico
Border Patrol office told the OIG that the December 14, 2001, memorandum
from the El Paso Chief Patrol Agent was placed on the “muster board” in that
station and was still there at the time of Batres’ apprehensions in January
2002. A Patrol Agent in Charge stated that the memorandum had been
discussed at shift briefings. We found no evidence that the memorandum was
distributed individually to agents.

       C. First Apprehension of Batres – January 18, 2002

      At approximately 4:30 a.m. on January 18, 2002, a Border Patrol agent
apprehended a group of four illegal aliens near Santa Teresa, New Mexico. The
agent transported the aliens to the Santa Teresa Border Patrol Station for
processing. At the station, the agent entered each of the aliens into IDENT. At
approximately 5:00 a.m., when the agent processed the fingerprints of an alien
who identified himself as Maximiliano Silerio-Esparza, the IDENT apprehension
database did not indicate any prior illegal entries for the alien, but the IDENT
lookout database provided a “red-line” hit for a wanted alien named Victor M.
Batres-Martinez.19




       18 The National Law Enforcement Telecommunications System is an international,
computer-based message system that links state, local, and federal law enforcement agencies
and allows them to exchange data.

       19   A “red-line” hit referred to a lookout in IDENT.



                                                18
      The agent told the OIG that he had not received the memoranda
described above detailing the process for handling IDENT lookouts for wanted
aliens. He said, however, that he handled this situation based on his
knowledge of the El Paso Sector Border Patrol policy, which he said had been
explained to him in an oral briefing by a Border Patrol shift supervisor in
December 2001. The agent said that, based on this briefing, his understanding
was that when he received a lookout for an alien in IDENT, WIN/AFIS
personnel would compare the fingerprints of the detainee against those of the
wanted fugitive, and the agent was supposed to await a telephone call from
WIN/AFIS for confirmation of the match.

      WIN/AFIS personnel confirmed the agent’s understanding of this policy.
They explained that in the case of a lookout entered from NCIC, the WIN/AFIS
Center is notified of the hit automatically (at the time that the alien is being
processed in IDENT) via a digital pager. WIN/AFIS personnel then were
required to confirm or deny the match and to contact the Border Patrol station
where the alien’s fingerprints were entered into IDENT to advise of the
confirmation or denial of the match and provide information about the match.
This contact is expected to occur within an hour of the hit. As a courtesy,
WIN/AFIS personnel also routinely send the processing Border Patrol station a
facsimile that includes the alien’s NCIC criminal history printout, warrant
information, and a WIN/AFIS worksheet.

       The agent who processed Batres and received the lookout hit in IDENT
said that, when he received the hit, the IDENT “fingerprint score” (which rates
the strength of a fingerprint match) that appeared on the IDENT screen was
insignificant to him. He said he had not yet received any training as to the
meaning of this score.20 Further, there was no available photograph in IDENT
to compare the lookout to Batres. The agent said he manually compared
Batres’ fingerprints to the fingerprints provided with the lookout. The agent
conducted his comparison on a 17-inch computer monitor, which showed the
two sets of prints side by side, one from the lookout and one from Batres,
whose prints he had just entered into IDENT. The agent explained that he
counted the lines from the delta to the center of the left index finger on both
sets of prints. He conducted this count twice and both times found a difference
of one line between the prints. He therefore thought that it was not a match,
and at approximately 5:10 a.m. he rejected the match in IDENT.

       The agent said that because he was not completely comfortable with
rejecting the lookout hit based on his fingerprint comparison alone, he took the
additional step of interviewing Batres. The agent stated that during the
interview, Batres was cooperative and exhibited no signs of deception. Batres
did not acknowledge being the person wanted in Oregon, although the agent

      20   The fingerprint score was a high one, indicating a likely match.



                                               19
said he did not press him on this issue. The agent told the OIG that based on
the totality of the circumstances – the absence of a return call from WIN/AFIS,
the agent's personal comparison of the fingerprints, and Batres' cooperative
demeanor during questioning – he did not believe that Batres was the person in
the lookout, and he therefore processed Batres for a voluntary return to
Mexico.21

      The agent finished processing the entire group of aliens at about
5:30 a.m. and locked them in the holding cell at the Santa Teresa Border
Patrol Station. The agent said that at approximately 6:30 a.m., he encountered
a supervisory Border Patrol agent who was beginning his shift. The agent
explained to the supervisor that Batres had a lookout hit, but that there was
no positive identification from WIN/AFIS, and the agent therefore did not think
that Batres was the person in the lookout. The agent said that the supervisory
agent did not question this conclusion.

       The supervisory Border Patrol agent acknowledged having a conversation
in which the agent told him that he had apprehended four aliens and that two
had returned red-line hits in IDENT. He said that the agent informed him that
one of the hits had a low matching fingerprint score and no picture, the other
hit had high scores and no picture, and that the prints did not appear to match
in either case. The supervisor said that this information was insufficient to
lead him to believe that “either of these aliens would fall under the directive
concerning WIN/AFIS aliens.” He stated that he believed that there was “no
problem,” and that another supervisor who was working with the agent during
his shift would have “taken care of anything that might have turned up in
accordance with the procedures.” In fact, this was the only supervisor whom
the agent informed of the hit regarding Batres.




        21 We asked the agent to reconcile how he could have been confident that WIN/AFIS

was not going to report a match within the 10-minute time frame, according to IDENT records,
from 5:00 a.m. when the agent entered Batres' fingerprints in IDENT, until 5:10 a.m. when he
rejected the match in IDENT. The agent could not readily explain this time frame, and said
that he remembered interviewing Batres at length, and waiting a longer period of time before
denying the hit. The agent said it is possible, however, that he may have interviewed Batres to
some degree prior to processing him in IDENT, although he had not initially remembered it
that way. Regardless of the precise timing, as discussed below and in Section VI(F)(2)(A),
below, we do not believe that the agent contravened established Border Patrol policies in
voluntarily returning Batres to Mexico since he informed a supervisor of the lookout and of his
proposed actions before Batres was returned. Moreover, WIN/AFIS did not contact the Border
Patrol until after Batres had been released.




                                              20
      At approximately 8:00 a.m., an INS Detention Officer picked up the
group of aliens, including Batres, and transported them to the Paso del Norte
processing station, where they were voluntarily returned to Mexico.

       We determined, however, that WIN/AFIS had confirmed the lookout for
Batres and had attempted to contact the Border Patrol to advise it of the
match. But WIN/AFIS did not have a current telephone number for the Santa
Teresa Border Patrol Station because the station had recently moved from a
temporary location to a new, permanent location, and the Border Patrol had
failed to provide the updated telephone numbers to WIN/AFIS. Consequently,
WIN/AFIS did not make contact with the agent to inform him of the match, and
Batres was voluntarily returned to Mexico without his true identity being
discovered and confirmed.

       At approximately 8:55 a.m., four hours after the agent had received the
IDENT hit for Batres, and after Batres already had been returned to Mexico,
WIN/AFIS personnel paged a supervisory Border Patrol agent who works on an
IDENT user group and was detailed to Washington, D.C., at the time.
WIN/AFIS informed this supervisory Border Patrol agent that around 5:00 a.m.
WIN/AFIS had received automatic IDENT notification that the agent in Santa
Teresa had entered an alien into IDENT and received a red-line alert. The
WIN/AFIS personnel told the supervisory Border Patrol agent that their
fingerprint comparison confirmed that Batres was the person wanted in Oregon
on an outstanding warrant. The WIN/AFIS personnel explained that they had
been attempting to call the processing agent since 5:00 a.m. to inform him of
the confirmation, but they had been unable to reach him. The supervisory
Border Patrol agent provided WIN/AFIS with the new telephone number of the
Santa Teresa Station.

       The supervisory Border Patrol agent said he immediately telephoned the
supervisory agent in Santa Teresa whom the apprehending agent had informed
of the red-line hit, and informed him of the situation. The supervisor in Santa
Teresa attempted to contact the apprehending agent by radio, but another
Border Patrol officer reported that Batres already had been turned over to
Mexican immigration officials and released.22

      In addition to confirming the lookout match, WIN/AFIS ran a criminal
history check on Batres on January 18, which included a “wants and
warrants” check. At the request of El Paso Sector Border Patrol officials,


       22 That same day, the processing agent, the supervisory Border Patrol agent whom he
had informed of the hit prior to Batres’ release, and the Santa Teresa Patrol Agent in Charge all
were required to write memoranda documenting their actions with respect to Batres and
explain why he had been returned voluntarily to Mexico.




                                               21
WIN/AFIS personnel faxed all of this information concerning Batres to the
EL Paso Sector Intelligence Unit. Acting Deputy Chief Danois Montoya
assigned the new El Paso Sector Intelligence Officer, Stuart Gary, to review the
materials, as well as any other relevant information that he could gather
through INS databases, to determine the extent of Batres’ criminal and
deportation record and to assess the significance of the mistake that had been
made in releasing him. Montoya stated that while Gary had just recently
transferred to the El Paso Sector Intelligence Unit, he was selected for this
assignment based on his reputation as an agent with the INS Office of Internal
Audit (OIA).

       After reviewing the information, Gary informed Montoya that Batres did
in fact have a significant criminal record as well as a prior deportation, and
that the release of such an individual – who also had an outstanding arrest
warrant – was a significant error by the Border Patrol. Montoya stated that he
believed that the arresting agent was at fault for failing to bring the red-line hit
to the attention of his immediate shift supervisor, and that based on that he
believed that disciplinary action should be initiated against the arresting agent.

        Montoya next relayed the information about Batres’ record and his
release to the El Paso Sector Chief Patrol Agent and the Patrol Agent in Charge
(PAIC) of the Santa Teresa Station, James Gonzales. Following standard
Border Patrol protocol, Gonzales directed the Border Patrol personnel involved
in the incident to write official memoranda to the Chief Patrol Agent
documenting their actions regarding the apprehension and release of Batres.
This included the arresting agent, the Assistant PAIC for the Santa Teresa
office, and the supervisory Border Patrol agent whom the arresting agent had
informed of the hit prior to Batres’ release. Montoya said that given the scope
of the mistake that had been made, the Border Patrol immediately forwarded
all of the relevant information to the Border Patrol’s Labor Management
Relations personnel to review for appropriate disciplinary action against the
arresting agent. Montoya stated that he did not request any further
investigation by the INS OIA because he felt that his office had gathered all of
the relevant information in connection with the incident.23

        23 Four months later, on April 25, 2002, the INS suspended the agent who had

detained and processed Batres. The INS charged him with failing to follow El Paso Sector
Border Patrol instructions, policy, and procedures by not bringing the possible lookout match
to the attention of a supervisor. The agent contested the charges, asserting that: (1) he did not
receive Chief Barker’s December 14, 2001, memorandum; (2) even if he had received the
memorandum, it does not require an agent to affirmatively pursue an answer from WIN/AFIS
as to the identification of the detainee; (3) the agent had informed a supervisor of the IDENT
lookout and the supervisor had nevertheless approved the release of Batres; and (4) the El Paso
Sector did not require that NCIC criminal history checks be conducted on all aliens. We
discuss these issues later in the report.




                                               22
       Unfortunately, despite clearly recognizing the significant mistake that
had been made in releasing Batres and discussing the simple steps which
could have avoided further mistakes with respect to Batres, Border Patrol
officials did not take these steps. Montoya said that on January 18, 2002, he
specifically discussed with PAIC Gonzales and perhaps other officials the
possibility of posting in IDENT and elsewhere a warning about Batres,
reflecting his aggravated criminal record, prior deportations, current arrest
warrant, and the fact that he had been improperly released before this
information was discovered. In fact, it was possible to enter such a warning
into Batres’ ENFORCE/IDENT records, and such a warning would have alerted
any agent who apprehended Batres about his extensive criminal record and
therefore would have resulted in his detention for prosecution.

       However, for reasons that he could not fully explain, Montoya never
assigned anyone to post such a warning about Batres. Montoya explained that
Border Patrol officials were focused on addressing the issue in a broader
context by disciplining individuals who made mistakes and planning a policy
that would require the posting of an IDENT warning for all aliens who are
improperly released, not just Batres. Unfortunately, Batres was erroneously
released again the very next day. Remarkably, Montoya acknowledged that as
of early February 2004 this policy of posting warnings in IDENT for improperly
released aliens has been communicated only orally and has not been
documented in writing.

      D. Second Apprehension of Batres – January 19, 2002

      The next evening, on January 19, 2002, another Border Patrol agent
encountered Batres several miles west of the Columbus, New Mexico, port of
entry, as Batres again was attempting to illegally enter the United States. The
agent apprehended Batres without incident. Batres once again provided his
name as Maximiliano Silerio-Esparza. The agent took Batres to the Columbus
Border Patrol Processing Center, where the agent was assisted by a second
Border Patrol agent in processing him.

      When the second agent entered Batres into IDENT, a lookout hit
appeared for Batres. Unlike the previous day, WIN/AFIS contacted the
arresting agent a short time later and advised her that there was an open
arrest warrant for Batres in Oregon. The agent then contacted the Multnomah
County Sheriff’s Department in Oregon, where the warrant had been issued.
Because of the nature of the offense underlying the warrant – possession of
dangerous drugs – the judge issuing the warrant had only authorized
extradition within a limited “shuttle range” due to the expense of transporting
and detaining arrestees. At the time of the Batres case, the “shuttle range”




                                      23
area included Oregon, Washington, western Idaho, and western Montana.24 As
a result, the Sheriff’s Department advised the Border Patrol agent that it would
not extradite Batres.

      The arresting agent then advised the acting supervisory Border Patrol
agent of the situation. The supervisor authorized the voluntary return of
Batres to Mexico, and instructed the agent to create a brief summary on
Batres’ I-213 Form (Record of Deportable/Inadmissible Alien), noting the
reason for the return of Batres. The agents then voluntarily returned Batres to
Mexico.

      The narrative on the I-213 Form, written by an agent who assisted in
processing Batres on January 19, stated that the Oregon authorities declined
extradition and that the Border Patrol supervisor approved Batres’ voluntary
return to Mexico. Under the section of the I-213 for Batres’ Criminal Record,
“none known” was filled in. Although the arresting agent completed the
information blocks on the I-213 Form, she noted that she did not actually enter
the words “none known” in the box for Criminal Record; rather, the system
automatically enters this phrase in the absence of an entry from the agent.

      In a memorandum to Border Patrol Headquarters following Batres’ attack
on the two nuns in Oregon, Chief Patrol Agent Barker stated that the standard
operating policy for the El Paso Sector was to thoroughly check the background
of any subject who returns a lookout in the IDENT system. This was not a
written policy, at least at the time that Batres was arrested. However, the
Border Patrol agents involved in processing Batres on January 19 said that in
the case of a confirmed lookout hit they would have either conducted the
criminal history checks themselves or ensured that they were conducted. Yet,
none of these agents had any memory of doing a check or ensuring that it was
done in the Batres case, and all said they had no knowledge that Batres had a
criminal record.

      The supervisory Border Patrol agent who approved Batres’ voluntary
return stated that in Batres’ case, where the lookout resulted in a confirmation
from WIN/AFIS and a valid FBI number, it was his responsibility to “ensure

       24  In Multnomah County, judges set the terms of extradition at the time they issue a
warrant. There is no standard formula for this decision. Rather, the decision is based on the
judge’s discretion, taking into account the seriousness of the offense at issue and any
recommendation made by the prosecutor in the particular case. The three possible terms for
extradition within Multnomah County included: (1) extradition within Oregon only;
(2) extradition within a standard “shuttle range” of several states (the option selected in this
case); and (3) nationwide or unlimited extradition. Once the warrant is issued, the terms for
extradition do not change absent a motion from a prosecutor or another party of interest. The
record did not indicate that prosecutors made any recommendations regarding the extradition
range in Batres’ case.



                                               24
that a further records check for any additional criminal history on [Batres]
were conducted.” He said that both he and the apprehending agent “knew
from experience that an individual with a “Red-line Alert” requires a lot more
investigation into his background and criminal history before making a
decision to allow that individual a voluntary return.”

      The arresting agent stated that she was unsure whether Chief Barker’s
December 14, 2001, memorandum was posted at the time that Batres was
apprehended, but she acknowledged understanding that criminal history
checks should be made when a red-line hit was confirmed. However, she could
not recall specifically querying NCIC herself or requesting another agent to
make the query. She said that she believed that the criminal history checks
were done and that the results were negative, based on the fact that the I-213
contained the entry “none known” in the Criminal Record block.

       The Border Patrol agent who assisted the arresting agent in processing
Batres stated that she was aware of Chief Barker’s December 14, 2001, policy
statement and that she believed that she complied with it. While she could not
specifically recall querying Batres’ FBI number for criminal history or asking
anyone to do so, she stated that it was her practice to routinely conduct
criminal history inquiries based on confirmed WIN/AFIS lookouts. She also
said that she would not have processed Batres for a voluntary return if she had
information about his prior deportation or criminal convictions.

       Yet, the evidence we found shows that no criminal checks were done. A
search of the NCIC and TCIC databases did not identify any queries by the
Border Patrol on January 18 or 19, 2002, for the name Batres, his known
aliases, or the FBI number provided by IDENT.25 A review of the Sector radio
logs also shows no indication that a criminal history check was requested or
conducted. Further, the I-213 Form does not address in any detail what steps,
if any, were taken with regard to determining Batres’ criminal history. Finally,
neither the arresting agent, the processing agent, nor anyone else in the office
had any recollection of either checking Batres’ criminal history record or of
asking anyone else to do it.

       E. Batres’ Attack on the Two Nuns

      In an interview with the OIG after his conviction for murder, Batres said
that after being returned to Mexico on January 19, 2002, he went to
Chihuahua City and illegally returned to the United States in August 2002. He
said he entered the United States with several other aliens near Polomas,

       25  TCIC is the Texas Criminal Information Center. It is a database managed by the
State of Texas that contains criminal history information and outstanding warrants for those
individuals arrested and wanted in Texas.



                                             25
Mexico. Batres said he hid in the desert area near Columbus, New Mexico, for
one day and then returned to Mexico because he was unable to find a means to
travel into the interior of the United States.

       Batres said that a few days later, he and two other Mexicans illegally
entered the United States near Polomas, New Mexico. He was able to reach
Deming, New Mexico, where he sneaked on a freight train traveling west
through Deming. Batres rode the train to San Bernardino, California. From
there, Batres went onto another train going to Los Angeles. After about three
days, he went on a freight train traveling north and onto several other trains,
finally arriving in Klamath Falls, Oregon.

       Batres said that he intended to travel on trains to Portland, Oregon, but
was impeded due to a large number of law enforcement officers working in the
train yard. Batres therefore decided to stay in Klamath Falls for a time and
look for work until he could make it to Portland. On September 1, 2002,
Batres encountered two Catholic nuns as he was walking through a local park.
Batres raped and assaulted both of the nuns, killing one of them. Batres was
quickly identified by the local Sheriff’s Department and arrested for the crimes.
Upon his arrest, he confessed to the rapes and murder. Batres subsequently
pled guilty to the murder and rape of one of the nuns and was sentenced to life
imprisonment without the possibility of parole.

      F. OIG Analysis of the Batres Case

       Based on Border Patrol practice and policies, Batres’ criminal record, if
known to the agents, should have resulted in his detention and prosecution.
Such prosecution likely would have caused Batres to be incarcerated for a
significant period of time, rather than being voluntarily returned to Mexico,
where he returned to the United States to commit his rapes and murder.

      Although our investigation found that some of the agents and
supervisors who handled Batres did not follow Border Patrol policies, we
believe that blaming them for this tragedy would not address the underlying
problems revealed by this case. Unless their technological support is
improved, it is inevitable that individual Border Patrol agents, who often are
overwhelmed by large numbers of aliens and cumbersome procedures, will not
be able to consistently determine the full criminal history and prior
deportations of all of the aliens they apprehend. Therefore, as we describe
below, we continue to believe the integration of immigration and FBI databases
is urgently needed to eliminate the potential for the breakdowns and problems
that this and other cases reveal.




                                       26
            1. Batres’ record warranted his detention for prosecution

      As noted above, the FBI’s database showed that Batres was convicted of
the aggravated felony of selling controlled dangerous substances in 1987 and
1988, and a third aggravated felony of kidnapping and second-degree robbery
in 1988. After serving the majority of his six-year sentence for the latter crime,
he was deported from the United States in 1992.

       An integrated IDENT and IAFIS database would have revealed these
convictions and Batres’ extensive criminal history, as well as his prior
deportation, when he was arrested by the Border Patrol agents in January
2002. However, while the IDENT lookout database provided these agents with
a lookout hit that enabled them to learn of Batres’ outstanding warrant in
Oregon, it did not contain any information about Batres’ criminal history or
prior deportation. The criminal conviction records contained in IDENT are
limited to immigration records that contain certain categories of convictions,
the automatic “wants and warrants” updates, the criminal history fingerprint
records of aliens from certain countries believed to be a threat to the United
States, records received and uploaded manually from other law enforcement
agencies, and the limited comments that Border Patrol agents have added to
IDENT based on their review of the alien’s NCIC records during prior
apprehensions. In order to access Batres’ criminal history records at the time
of his apprehensions, Border Patrol agents would have had to seek his criminal
records by asking for a check of the FBI’s III or IAFIS database.

      If the agents who processed Batres had learned of his record – his three
aggravated felonies and his prior deportation – under Border Patrol policies,
they should have detained him and sought his prosecution for Reentry After
Deportation (8 U.S.C. § 1326(b)).26 This statute provides felony penalties for
aliens who have been deported or removed from the United States and
thereafter reentered the country illegally, which applied to Batres. This statute
provides for harsh punishment – up to 20 years’ imprisonment – for aliens
such as Batres “whose removal was subsequent to a conviction for commission

       26   Batres also could have been prosecuted for Entry Without Inspection, pursuant to
8 U.S.C. § 1325. The Border Patrol charges aliens with the misdemeanor offense of “Entry
Without Inspection” (EWI), pursuant to 8 USC § 1325, when (1) the alien is apprehended for
illegal entry a certain number of times (While EWI charges can be brought based on just one
entry, each jurisdiction sets its own “threshold” guidance as to when to bring these charges.);
(2) the alien has been previously deported; or (3) the alien has an aggravated criminal record,
such as a prior felony. The latter two conditions were both present in the Batres case.
Moreover, the charge of EWI is easy to prove. It only requires presentation of the I-213 Form
and evidence that the alien at the hearing is in fact the same person listed in the
I-213.




                                               27
of an aggravated felony.” (8 U.S.C. § 1326(b)(2)). Batres’ prior deportation was
subsequent to convictions of at least three aggravated felony convictions.

       According to the prosecutors from New Mexico and Texas who we
interviewed in the Resendez case, aliens with a prior aggravated felony record
typically received at least a 3-year prison sentence upon conviction for Reentry
After Deportation. Moreover, the crime of Reentry After Deportation is easy to
prove. It simply requires proof of a prior order of deportation (in which a
Detention and Deportation employee certifies that the alien exited the country
on a particular date), and evidence that the alien is the same individual who
previously was deported.

         2. Actions of agents who processed Batres

             a. January 18 apprehension

      On January 18, 2002, the arresting agent learned of the lookout hit for
Batres but did not receive confirmation from WIN/AFIS that Batres was the
person in the lookout. The agent therefore did no records check on Batres and
voluntarily returned him to Mexico. The Border Patrol disciplined the agent for
allegedly failing to follow procedures. However, it is not clear that he
contravened established and communicated Border Patrol policies, and we
believe solely blaming the agent in this case misses the larger point.

       The Border Patrol alleged that the agent “failed to follow proper
procedures in processing a possible fugitive and/or Want and Warrant Hit.”
The Border Patrol stated that he failed to notify a supervisor of the “lookout
hits” and voluntary return of Batres to Mexico. Yet, the agent did not violate
the December 14 policy memorandum, which states in pertinent part:

      If an agent processes an individual through IDENT and gets a
      “lookout” candidate from any of the law enforcement agencies
      registered with WIN AFIS, the agent will receive a call from
      WIN AFIS. At the time of notification, the “hit” will be brought
      to the attention of the supervisor. The supervisor will make
      the appropriate contact with the agency requesting the
      detention for resolution and/or disposition of the suspect
      being detained. [Emphasis added.]

       The agent did, in fact, bring the hit to the attention of a supervisor. He
informed a supervisory Border Patrol agent who was entering the next shift
that Batres had a red-line lookout hit, but that there was no positive
identification received from WIN/AFIS. The supervisor acknowledged that the
agent told him that Batres and another alien had returned lookout alerts in
IDENT, that the agent had reviewed the fingerprints but did not think they
matched the fingerprints associated with the lookouts, and that the agent


                                        28
processed the aliens for voluntary return. The supervisor said he did not
intervene or suggest any further action because he believed that if there had
been any problem, a supervisor from the prior shift would have taken care of it
in accordance with procedures.

       Moreover, the December 14 policy statement does not even appear to
require agents to contact supervisors about all lookout hits, only those in
which WIN/AFIS confirms the lookout match. In this case, WIN/AFIS did not
call the agent back to confirm the lookout, because it did not have the current
telephone number for the station.

       Finally, we question the actions of the Border Patrol supervisors after
they were informed by WIN/AFIS that Batres was the person in the lookout.
While Batres had already been released, we believe they should have at least
noted in IDENT that Batres had been released before the criminal history check
had been received, and that the check showed that he had an aggravated
criminal record and a prior deportation. This would have been important
information to alert any other Border Patrol agent who apprehended Batres
that he should be detained rather than mistakenly released, which happened
again the very next day. Although the Border Patrol asked the agents involved
to write memoranda that same day on what had happened, no one took the
initiative to have the information about Batres entered into IDENT. They
explained this deficiency by stating that they were focused on discipline for the
arresting agent, as well as considering a policy requiring the posting of an
IDENT warning for all aliens who are improperly released, not just Batres. Yet,
this does not explain why they did not also take the simple step of posting an
alert on Batres in IDENT. This was a significant and unjustified failure. And,
as noted above, the Border Patrol still has not issued any written policy
addressing this issue as of early February 2004.

             b. January 19 apprehension

      During the second apprehension of Batres, on January 19, 2002, the
Border Patrol agents received confirmation that Batres was the person wanted
in the IDENT lookout. The agents appropriately followed Border Patrol
procedures and contacted the Oregon authorities. The Sheriff’s Department in
Oregon advised that they did not want Batres extradited to Oregon, and the
Border Patrol therefore voluntarily returned Batres to Mexico.

      But the evidence shows that the Border Patrol agents failed to check
Batres’ criminal history before returning him to Mexico. The agents
acknowledged understanding that they should ensure that criminal history
checks are performed for any alien, such as Batres, with an outstanding
warrant. Both of the agents involved in processing Batres asserted that they
believed that the check was done, although they could not say who did it.
Despite the notation on Batres’ I-213 Form of no known criminal history, a


                                       29
review of Sector radio logs, and NCIC and TCIC search results, showed no
indication that there was a call to perform a criminal history check on Batres
on January 18 or 19, 2002.

       While we cannot know with certainty why the Border Patrol did not
conduct criminal history checks in connection with the second arrest, it is
likely that the check slipped through the cracks, perhaps after the Oregon
authorities declined to extradite Batres. While not excusing this failure, we
believe that such omissions are inevitable, given the large volume of aliens
apprehended, the time pressure on individual agents to process many aliens,
the imprecise and changing Border Patrol procedures, the lack of
comprehensive training for agents on these procedures, the multitude of
information and forms that have to be completed for each alien, and the
cumbersome procedures required to complete criminal history checks. In our
view, without integrated databases, problems like the Batres and Resendez
cases will recur.

      We cannot determine with certainty how many dangerous aliens with
serious criminal records the Border Patrol continues to voluntarily return
because it does not learn of their criminal records from information in FBI
databases. However, the experience with the downloads of FBI criminal
records into immigration databases suggests the number is large. Since
August 2001, 152,000 IAFIS “wants and warrants” fingerprint records have
been added into IDENT, and from January 2002 to April 2003, immigration
employees have matched to these records and apprehended 4,820 aliens who
were wanted for criminal offenses, including many for drug trafficking and
violent crimes. Fifty of these aliens were wanted in connection with murder.
Since entering into IDENT during the same period an additional 179,500 IAFIS
criminal history fingerprint records of aliens from certain countries believed to
pose a security risk to the United States, immigration personnel have matched
criminal records to 3,440 apprehended aliens. But these are incomplete
downloads of criminal information, and many aliens who have criminal records
are detained and released without any check of their records.

        The security concerns raised by these numbers are clear. Inputting
fingerprint records into IDENT has demonstrated the potential value of a fully
integrated system, but it falls well short of the capability offered by full access
to all IAFIS fingerprint records. Until the integration is complete and
immigration authorities, the FBI, and other law enforcement agencies can
simultaneously query both immigration and FBI fingerprint records, we believe
dangerous aliens who should be detained may not be.

VII.   STATUS OF IDENT/IAFIS INTEGRATION

      Since the OIG’s June 2003 report on the status of the IDENT/IAFIS
integration, the integration project has made some progress but it continues to


                                        30
move slowly. As of January 2004, all aliens apprehended by the Border Patrol
still are not checked against FBI criminal fingerprint records and the FBI and
other law enforcement agencies using the FBI’s fingerprint records still cannot
access the DHS’s criminal alien fingerprint records. Further, the transfer of
the INS to the DHS has created additional issues relating to the management of
the integration project. This section of the report summarizes the current
status of the IDENT/IAFIS integration project.

       A. June 2003 OIG Report

       In June 2003, we reported that the IDENT/IAFIS integration project had
fallen at least 2 years behind schedule.27 At that time, the next major project
milestone was deployment of the initial integrated version of IDENT/IAFIS,
Version 1.2. Originally scheduled for December 2001, that deployment
experienced a series of delays while JMD studied the operational costs of the
integration (called the Metric Study) and while the INS focused on developing
the National Security Entry/Exit Registration System (NSEERS).28

       We also reported that the integration project was at risk of further delays
because JMD had not developed a transition plan for continued management of
the project after the INS transferred to the DHS in March 2003. Moreover,
JMD had not prepared a revised schedule for completing the full integration of
IDENT and IAFIS. We found that the lack of planning resulted in confusion
over whether JMD or the DHS would manage the development and deployment
of the integration project. We also noted the potential loss of expertise as the
DHS reassigned individuals experienced in IDENT away from the stalled
integration project.

      The delays and lack of planning we noted for the integration project were
troubling because the interim enhancements made to IDENT had resulted in
an impressive record of helping to identify wanted aliens. For example, from
January 2002 to April 2003 the INS identified 4,820 apprehended aliens

       27   See the OIG report entitled “Status of IDENT/IAFIS Integration,” June 2003.

       28   NSEERS is a national registry for nonimmigrant aliens arriving from certain
countries to the United States, or aliens meeting intelligence-based criteria and identified as
presenting an elevated security concern. NSEERS, which collected background, travel, and
departure information and fingerprints, was the first step taken by DOJ and then DHS to
comply with the congressionally mandated requirement for a comprehensive entry-exit program
by 2005. However, NSEERS ended on December 1, 2003, and on January 5, 2004, was
superseded by the United States Visitor and Immigrant Status Indicator Technology (US VISIT)
program at 115 airports and 14 seaports. DHS officials plan to implement US VISIT at all ports
of entry by December 31, 2005. US VISIT requires that most foreign visitors traveling to the
United States on a visa have their two index fingers scanned and a digital photograph taken to
verify their identity at the port of entry. US VISIT also will begin pilot testing departure
confirmation systems at several locations.



                                               31
wanted in connection with a variety of serious criminal offenses, including at
least 50 aliens wanted in connection with murder, after 152,000 NCIC “wants
and warrants fingerprint records were added to the IDENT lookout database.

      Our June 2003 report recommended that JMD coordinate with the DHS
to identify the management, deployment, and operational issues raised by the
INS transfer to the DHS; prepare a revised project deployment plan; and report
quarterly on the progress and interim results of the Metric Study.

       B. Progress Since June 2003

       In its response included in the OIG’s June 2003 report, JMD said that it
initiated communication between the Chief Information Officers of DOJ and
DHS to discuss project integration issues; prepared a revised deployment plan;
briefed Congress and DOJ officials on the project status; and issued the first
quarterly report from the Metric Study. However, in a September 17, 2003,
follow-up response JMD identified several critical issues it said threatened the
progress of the IDENT/IAFIS integration effort. We discuss these issues and
the progress made by the DOJ and DHS in addressing the issues as of January
2004.

   •   Project Leadership and Responsibilities. DOJ and the DHS have
       assigned lead responsibility for the integration project to specific offices
       in each agency – for the DOJ, JMD’s Management Planning Staff and for
       the DHS, its ENFORCE/IDENT Program Office.29 However, as of
       January 2004, the DOJ and DHS still had not developed an interagency
       memorandum of understanding to clarify the roles, responsibilities, and
       funding for the IDENT/IAFIS integration project.30

   •   Funding. The DOJ’s FY 2004 appropriation, passed by Congress in
       January 2004, included $5.1 million for the integration project,
       $4 million dollars less than requested by the DOJ. The DHS received no
       direct funding for the integration project in its FY 2004 appropriation.
       JMD officials told the OIG that it believes this level of funding will slow
       down the deployment of Version 1.2 of IDENT/IAFIS, but at the time of
       this report JMD had not yet estimated the extent of the delay.


        29 ENFORCE is a case management system that documents and tracks the
investigation, identification, apprehension, detention, and removal of immigration law violators.
The ENFORCE/IDENT Program Office reports to the managers of US VISIT within the DHS.

       30   The Conference Report accompanying the FY 2004 omnibus appropriations
legislation directed the DOJ to develop a memorandum of understanding with the DHS and
other appropriate federal agencies regarding the continued integration of fingerprint systems.




                                               32
    In addition, the DOJ and the DHS disagree on whether any of the
    $330 million Congress has provided for the DHS’s US VISIT program in
    FY 2004 could be used appropriately to advance the IDENT/IAFIS
    integration project.

    Finally, the President’s FY 2005 budget request includes $21.5 million
    for the IDENT/IAFIS project – $5.1 million for JMD to continue
    development and $16 million for IAFIS to support anticipated increased
    transactions from DHS sites. According to JMD officials, the DHS is
    responsible for the expense and scheduling of further development and
    deployment of Version 1.2.

•   Interoperability. As of January 2004, issues related to the compatibility
    of the two-print US VISIT system with the ten-print records in the IAFIS
    database were unresolved, as was the issue of whether and how IAFIS
    would access the US VISIT fingerprint records. As of January 2004, it
    has not been determined yet how IDENT/IAFIS will interface with the
    structure of the new US VISIT biometric system implemented to track the
    arrival and departure of foreign visitors to the United States.

    On January 26, 2004, the first meeting of the US VISIT Federal
    Stakeholders Advisory Board was held, chaired by the DHS
    Undersecretary for Border and Transportation Security, followed several
    days later by a meeting attended by many of the IDENT/IAFIS principals.
    At this second meeting, the DOJ and DHS officials agreed to formally
    present positions on providing the FBI access to US VISIT fingerprint
    records and on existing policies that would restrict the sharing of this
    information. DHS was tasked with researching the possibilities of
    sharing US VISIT data with DOJ and the FBI. Both groups are
    scheduled to meet again in March 2004.

•   Development Schedules. We were informed by DOJ in September 2003
    that DHS staff working on the IDENT/IAFIS integration have been
    redirected to the US VISIT program, which continues to be a DHS
    priority. Further, we were told that implementation of US VISIT required
    changes to IDENT, which resulted in delay of IDENT/IAFIS integration
    efforts until the US VISIT changes were completed and a “stable software
    baseline” (i.e., a version not undergoing revision) was established. The
    DHS staffing issues were resolved by October 2003 with implementation
    of the integrated BTS/US VISIT/ENFORCE IDENT Program Office and
    the hiring of additional DHS personnel whose work on US VISIT
    accelerated necessary modifications to IDENT/IAFIS. JMD officials told
    us that the stability of the IDENT/ENFORCE software baseline remains a
    potential concern for the duration of the development of US VISIT



                                    33
       through FY 2005. DOJ officials stated that they considered Version 1 (as
       represented by Version 1.2) to be completed. DHS officials stated that
       DOJ and DHS have not yet completed development of Version 1.2 as
       defined in its requirements document.

       DOJ and DHS officials also noted the importance of a Fingerprint Vendor
       Technology Evaluation being conducted by the National Institute of
       Standards and Technology on behalf of JMD and in conjunction with the
       FBI. This evaluation is responsive to a requirement in the Department’s
       FY 2003 appropriations bill directing that $1 million be spent on a pilot
       program for software for IAFIS capable of expediting background checks
       using ten or less fingerprint comparisons.31

   •   Fingerprint Image Quality. According to DOJ and DHS officials,
       fingerprint image quality is currently the most important operational
       issue in the IDENT/IAFIS integration project. According to DHS officials,
       this issue has temporarily slowed further deployment of Version 1.1+.
       The recent image quality problems coincide with deployment of Version
       1.1+ and its new fingerprint scanner. 32 In late 2003, 20 to 30 percent of
       IDENT fingerprint quality indicator scores began falling into the
       unacceptable range. DHS staff suspect three possible overlapping
       causes: the new scanners; the cropping of the fingerprint images after
       the fingerprint has been scanned and before the image is searched
       against the IDENT database; and inadequate training. Since discovering
       the problems, DHS officials said that they are testing another scanner to
       see if it gets better results, adjusting the area of the fingerprint that is
       scanned and examining the effectiveness of their training.

   •   Data Completeness. According to JMD, as of September 2003 the DHS
       had identified discrepancies in the data that JMD was collecting from
       various sources to estimate “front line” and “downstream” costs of the

       31 DOJ also issued a Request for Information for fingerprint technology that could
capture the equivalent of 10 rolled fingerprints in less than one minute.

       32  Version 1.1+ workstations can take 10 rolled fingerprints and simultaneously query
the IDENT and IAFIS databases to provide a rapid response for potential matches from IAFIS in
less than 10 minutes. Version 1.1+ also modified the IDENT photograph for the purposes of
electronic booking. DHS officials stated that Version 1.2 also will automatically submit 10
fingerprints to the DHS Biometric Support Center (which maintains the lookout database) in
order that the aliens’ fingerprints be entered into the lookout database. Version 1.2 also would
enable certain IAFIS data to be automatically entered in the associated ENFORCE record. The
next version, Version 2, will create within IAFIS an Immigration Apprehension file, consisting of
both flat and rolled IDENT fingerprints, which will allow other federal, state and local law
enforcement agencies to submit ten-rolled prints for criminal checks against the IDENT
fingerprint records.




                                               34
       integration project for the Metric Study.33 As of January 2004, the DHS
       and JMD still were in the process of identifying and resolving these
       discrepancies.

      We concluded that as of January 2004, some progress has been made in
deploying the initial integrated versions of IDENT/IAFIS, but the integration
process continues to proceed slowly. IDENT Version 1.1+ workstations have
been deployed to approximately 56 DHS sites, including 25 ports of entry and
31 Border Patrol stations. That represents about 12 percent of all ports of
entry, and about 20 percent of all Border Patrol sites.34

      The first Metric Study report sent to Congress on July 18, 2003,
estimated that, as a result of improved IAFIS access, the Border Patrol was able
to obtain additional criminal history information that it would not have known
about for between 8.8 percent and 10.3 percent of the aliens it apprehended at
the metric sites. Preliminary Metrics data from October through December
2003, with all sites deploying Version 1.1+, suggested that access to IAFIS
provided criminal history information to the Border Patrol on between 8.5 and
11.8 percent of apprehended aliens that would not have been known by
searching IDENT alone. From October 1, 2003, until January 31, 2004, the
Border Patrol had 9,650 criminal hits from IAFIS that, including hits for aliens
wanted in connection with 13 murders.

      The FBI continues to electronically update every two weeks the “wants
and warrants” file that goes into the IDENT lookout database. Every month,
the FBI also provides to the lookout database an updated Terrorist file, which
includes fingerprint records the FBI has acquired from various law enforcement
and security sources. From October 2003 until January 31, 2004, the DHS
has received 3,034 hits on apprehended aliens from the updated “wants and
warrants” file, including 399 hits for aliens wanted for violent crimes.

      Finally, JMD has revised the official project schedule to reflect the delays
that had been incurred through September 2003. According to the revised
schedule, IAFIS will be expanded to handle the additional workload generated
by the nationwide deployment of Version 1.2 by September 30, 2005.

        33 The front line cost refers to the additional resource requirements for DHS that would
result from the increased apprehension of identified criminal aliens. The downstream cost is
the operational cost to other agencies that would be affected by the increased apprehension
and processing of illegal aliens, such as the United States Marshals Service, Federal Bureau of
Prisons, Executive Office for Immigration Review, and the United States Attorneys’ Offices.

       34  In addition, another 56 locations (ports of entry, Border Patrol stations, and District
Offices) have received the unintegrated Version 1.1.1, which requires that aliens be processed
twice in order to check both the IDENT lookout database and the IAFIS criminal history
records.



                                               35
According to JMD officials, DHS will determine the date by which Version 1.2 is
deployed nationwide. The revised schedule indicates that the final version,
Version 2 – which will provide the important capability for the FBI and local
law enforcement agencies to access the DHS’s fingerprint and criminal history
databases – will not be completed before August 2008. That is more than
5 years later than Version 2 originally was scheduled to be deployed, and
almost 2 years behind the original scheduled completion date for the entire
integration project. However, according to JMD officials, the scope and
phasing of the entire project has undergone a thorough revision. Version 2 will
incorporate what was referred to as Versions 2, 3, and 4 in the original project
plan.

       Thus, while there has been some progress at deploying an integrated
version of IDENT/IAFIS, full integration of the two systems remains years
away. The FBI, the DHS, and local law enforcement agencies still are far from
a fully integrated system that will automatically check the fingerprints of
apprehended aliens against all IDENT and IAFIS records. According to the
latest schedule, the deployment of a fully integrated fingerprint system is at
least 4 years away. We believe this continues the significant risk that aliens
who should be detained, such as Resendez and Batres, instead will be released
because Border Patrol agents will not learn of their significant criminal or
deportation history.

VIII. RECOMMENDATIONS

 1.   The DOJ should develop and implement a memorandum of
      understanding (MOU) with the DHS to guide the integration of
      IDENT and IAFIS.

       In its September 17, 2003, response to the OIG Report, JMD stated that
it would develop an MOU between DHS and DOJ detailing the roles and
responsibilities pertaining to the IDENT/IAFIS integration project. Since then,
in the FY 2004 Omnibus Appropriations Act, Congress specifically directed
DOJ to develop and implement such an MOU with DHS, including cost-sharing
agreements, to ensure continued coordination on this and other initiatives.

        As of January 2004, JMD managers told the OIG that they have made
little progress on drafting such an MOU. They said that JMD is waiting for
more information from DHS about how the entry-exit control requirements of
US VISIT will be integrated with IAFIS. In addition, the FBI and DHS have not
agreed on the extent of access that the FBI will have to fingerprints collected by
US VISIT. DHS managers also told us that they have been preoccupied with
deploying the first phase of US VISIT, although they indicated that an MOU
does not have to hinge on whether the issues revolving around US VISIT have
been resolved.



                                       36
      We believe that DOJ, in collaboration with DHS, should resolve these
issues and ensure that an MOU detailing the duties and responsibilities for the
IDENT/IAFIS project be completed soon.

 2.   The DOJ should assign responsibility for coordinating and
      overseeing the integration project to a senior DOJ official.

       We believe that the participation of high-level officials – at both DOJ and
DHS – is needed to resolve cross-agency issues so that this critical joint project
can move forward in a timelier manner. At DOJ, we recommend that the Chief
Information Officer (who is now meeting monthly with his DHS counterpart on
the IDENT/IAFIS integration project) be assigned to lead this integration
project on behalf of DOJ and to oversee the efforts of JMD’s IDENT/IAFIS
Integration Project Office. JMD should retain the daily operational
responsibility within DOJ for directing and assuring the successful integration
of IDENT and IAFIS databases. In light of JMD’s history and experience in
coordinating this initiative, as well as the working relationships it has
developed with the critical offices and individuals within the DHS and the FBI,
we believe that JMD remains the most capable and appropriate entity to
oversee completion of the project. Nevertheless, we believe that one senior
official assigned ultimately should be responsible for ensuring that the project
moves forward and any difficulties are addressed timely.

 3.   The DOJ should pursue expeditiously the development of Version 2
      of the IDENT/IAFIS Integration Project, which will provide the DHS
      apprehension and criminal history information to other federal,
      state, and local law enforcement agencies.

       To date, the IDENT/IAFIS integration project has focused on providing
FBI fingerprint and criminal history information to immigration agents at DHS
to enable them to identify criminal aliens. Conversely, federal, state, and local
law enforcement officials will benefit greatly from ready access to DHS
fingerprint and criminal history information, including information on prior
deportations.

      According to officials at the DOJ and DHS, significant policy questions
remain concerning how the FBI will access certain IDENT fingerprint records
and how the records will be made available to other law enforcement agencies.
These questions must be resolved before work on Version 2 of the Integration
Project can proceed. We believe that these decisions should be made as soon
as possible, because they will affect the ability of local, state, and other federal
law enforcement agencies to receive information from IDENT records.




                                         37
 4.   The DOJ should work with the DHS to update the FBI’s “wants and
      warrants” information with IDENT on a daily, rather than bi-weekly,
      basis until IDENT and IAFIS are fully integrated.

      IDENT is currently updated with FBI “wants and warrants” information
every two weeks. This creates the obvious risk that wanted aliens may be
released inappropriately because a “want or a warrant” has not been placed in
IDENT between the biweekly update. We believe the FBI should work with the
DHS to ensure that its “wants and warrants” are transferred automatically to
IDENT every day; that the IAFIS records in IDENT are timely, accurate and
complete; and that records be modified or deleted when a change is made in III.

 5.   The DOJ should coordinate with the DHS to establish procedures to
      ensure that the criminal histories of all aliens who have a lookout or
      IAFIS hit are provided to and reviewed by the Border Patrol. In
      addition, we urge the DHS to make these criminal history records
      part of the official record of its encounter with the alien. Further,
      we encourage the Border Patrol to create a uniform policy for all
      Border Patrol sectors and stations that outlines appropriate
      procedures for handling lookout hits.

       In response to lookout hits, WIN/AFIS currently faxes an alien’s criminal
history RAP sheet to the Border Patrol station even though they are not
required to do so. We believe this should become a formal procedure because
the Batres case demonstrated the tragic consequences that can occur when
unclear procedures result in a failure to review an alien’s criminal history
record, even when that alien is the subject of a lookout hit. If the records are
not reviewed, aliens with serious criminal histories may be voluntarily returned
rather than being held for further law enforcement action. Moreover, we
believe that the Border Patrol should develop clear and uniform policies that
detail when a Border Patrol agent should obtain a full criminal history check
on an alien and that when the RAP sheet check is done the response be placed
in the alien’s file.35

IX.   CONCLUSION

       The Batres case, like the Resendez case before it, demonstrated the
critical need for rapid integration of immigration and criminal fingerprint
identification databases. These cases illustrated that cumbersome and
imperfect manual processes inevitably will permit the criminal and deportation
record of dangerous criminal aliens, such as Batres and Resendez, to remain
undetected. Immigration agents cannot perform such manual checks on all

      35   JMD’s response to these recommendations is included in the Appendix to this report.



                                              38
apprehended aliens. Rather, an automated system to check such records
through integrated databases must be implemented as expeditiously as
possible.

      Both the DOJ and DHS recognize this need. Yet, while the integration
project has made progress, it continues to move slowly and still is years from
completion. Recently, it has been slowed by the attention placed on other
technology projects, such as US VISIT. In addition, the transfer of the INS to
the DHS has caused delays in the integration project. Uncertainty also
remains as to who will be responsible for the overall management of the
integration project. Significantly, the DOJ and the DHS have yet to enter into a
memorandum of understanding delineating the specific roles and
responsibilities of each agency in the project.

      We believe that the integration project should remain a critical priority
and should receive close attention and adequate resources, notwithstanding
other important tasks facing both agencies. We continue to believe that
expeditious integration is essential to providing immigration and law
enforcement agents adequate access to information about criminal aliens,
which could help avoid recurrences of cases like Batres and Resendez. We
therefore continue to recommend that the DOJ ensure that the IDENT/IAFIS
integration project receives close attention and proceeds expeditiously.




                                       39
         Appendix

Department of Justice Response
                                                        u.s. Department Justice
                                                                      of




                                                         Washington,
                                                                   D.C. 20530


        J:r:~ 24


     MEMORANDUM          FOR GLENN A. FINE
                              Inspector General
                              Office of Inspector General

     FROM:                    Paul R. Corts 17 General
                              Assistant Attorney fZC         '-')


                                 for Administration


     SUBJECT:                  Comments DIG Draft Report: illENT/lAFIS: The BatresCaseandThe
                                          on
                               Statusof the IntegrationEffort

     Thank you for the opportunity to comment on the Office of Inspector General's (OIG) draft report
     entitled, "IDENT/IAFIS: The Batres Case and The Status of the Integration Effort." As you
     requested,we have identified a number of factual inaccuracies that are present in the report, and they
     are noted in an attachmentto this memorandum. Below are commentsregarding the recommendations
     contained in the draft report.

             The DOJ should developand implement a memorandum of understanding (MOU) With
             the DHS to guide the integration of mENT and IAFIS.

             We agreethat a MOU with DHS is needed   and,as you report, it hasbeenour intentionto
             developsucha document    sincelastsummer.However,that MOU mustinclude a cost-sharing
             agreement will requireDHS to contributefundsto this effort if significantprogress to be
                        that                                                                     is
             accomplished a timely manner. Sinceour Department's
                           in                                       appropriation just passed, has
                                                                                  was               it
             beenunclearuntil just recentlyasto how muchdirectfunding would be availableto the project.
             Furthermore, you alsoreport,a numberof significantpolicy decisionsmustbe made
                           as
             regardingthe US VISIT system its relationship IAFIS. Thesedecisions
                                            and              to                         will directly
             affectthe contentsof an MOU andthe associated sharingagreement.We arehaving on-
                                                           cost
             going discussionswith DHS aboutall of theseissues, an MOU will be prepared soonas
                                                                and                           as
             possible.

             The DOJ should assignresponsibility for coordinating and overseeingthe integration
             project to a senior DOJ official.




1.
2.
     Glenn A. Fine                                                                            ?




            We agree that the participation of high-level officials in both DOl and DHS is needed to
            resolve a number of critical issues. I am satisfied, however, that the current assignmentof
            responsibilities within JMD is sufficient to move this project forward; we just need to reach
            agreementwithin DHS on many of these issuesand obtain the necessaryfunding. The
            personnel assignedto the IDENT/IAFIS Integration Project Office are working closely with the
            CIO on these matters, and I am being kept apprised of issues that need to be brought to the
            attention of senior Departmental officials. I have had conversation with Asa Hutchinson, Under
            Secretary for Border and Transportation Security (with responsibility for this project at DHS),
            and we will communicate on these issues when necessaryor appropriate.

        3. The DOJ should pursue expeditiouslythe developmentof Version 2 of the
           IDENT/IAFIS Integration Project, which will provide the DDS apprehensionand
           criminal history information to other federal, state, and local law enforcement
           agencies.

            As mentioned previously, a number of critical Iissuesare being discussed with DHS and US
            VISIT officials. We agree that these issues mtst be resolved before work on the next phase of
            the integration project can proceed. This will ensure that the greatestdegreesof interoperability
            and effectiveness are achieved at the least cost and within the shortestpossible timeframe.

            The DOJ should work with the DHS to update the FBI's "wants and warrants"
            information with IDENT on a daily, rather than bi-weekly, basis untillDENT and
            IAFIS are fully integrated.

            Consistent with your recommendation, the FBI is already responding to a DHS request for
            daily updates of the "wants and warrants" exttacts that are loaded into IDENT. We expect
            that to be achieved within three months.

       5.   The DOJ should coordinate with the DHS to establish procedures to ensure that the
            criminal histories of all aliens who have a lookout or IAFIS hit are provided to and
            reviewed by the Border Patrol. In addition, we urge the DHS to make these criminal
            history records part of the official record of its encounter with the alien. Further, we
            encourage the Border Patrol to create a uniform policy for all Border Patrol Sectors
            and stations that outlines appropriate procedures for handling lookout hits.

            Today, using the most cuuent IDENT/IAFIS workstations, DHS can take 10 rolled prints and
            simultaneously submit searchesto both IDENT and IAFIS. An IAFIS "hit" will automatically
            return a rap sheetto DHS in 10 minutes, often within 3-5 minutes. Future deployment of this
            workstation will be done by DHS, at its expenseand according to its schedule because
            Congress deleted funding for this purpose from the DOJ budget.




4.
GlennA. Fine                                                                             3


       When using IDENT only, DHS is able to detect "wanted" aliens if those records have been
       extracted from lAPIS and placed in IDENT. When there is an IDENT hit on these individuals,
       DHS is provided the relevant FBI record number. As your report states,a Border Patrol
       Agent can obtain the criminal history through a phone call to his or her radio room. This would
       have been an easier task to perform than was the 45-minute interview with Mr. Batres that was
       conducted by the agentwho first apprehendedhim. The rap sheet that could have been
       obtained might have provided physical characteristics (e.g., scars,marks and tattoos) that
       would have helped to confirm Mr. Batres' real identity.

Again, thank you for the opportunity to comment on this draft report. I share your view that this project
offers significant law enforcementbenefits and that it should proceed as expeditiously as possible.
Pleasebe assuredthat we are working with officials from DHS to ensure the integration/interoperability
oflAFlS and IDENT/US VISIT in the most effective and efficient manner.

Attachment
